U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Desmond Howard Greer v. United States of America,
S.Ct. No. 20-6130

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 21,
2020, and placed on the docket on October 26, 2020. The government’s response is due on
November 25, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 28, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6130
GREER, DESMOND HOWARD
USA

KEVIN JOEL PAGE
ASSISTANT FEDERAL PUBLIC DEFENDER
525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG

